Audit Report

Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention Project E.S.C.A.P.E. Awarded to 
Santa Rosa Memorial Hospital, Santa Rosa, California

Report No. GR-90-04-011


July 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Project E.S.C.A.P.E. grant, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to Santa Rosa Memorial Hospital headquartered in Santa Rosa, California.  The purpose of this grant is to reduce female juvenile crime and violent behavior patterns in Sonoma County, California, by enhancing the external and internal assets of girls ages 10 to 14.  The project achieves its goal through seven strategic program activities, including:  (1) group counseling circles, (2) life learning tracks, (3) interactions with adult role models, (4) community service,      (5) physical fitness and emotional health, (6) journaling, and (7) homework assistance.

As of September 19, 2001, Santa Rosa Memorial Hospital was awarded a total of $997,800 to reduce female juvenile crime and violent behavior patterns in Sonoma County.  We tested Santa Rosa Memorial Hospital's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  

Of the $801,851 expended as of December 31, 2003, we tested transactions totaling $113,975 and found some transactions lacked adequate support.  As a result, we question $7,013 in grant funds received.1   In addition, we recommend that the OJP work with Santa Rosa Memorial Hospital to ensure that all Financial Status Reports are submitted accurately, and in a timely manner.  In brief we found:

For FY 2002, several disbursements did not have supporting invoices or receipts. 

	Of the ten Financial Status Reports submitted by the grantee, three were not submitted timely.  In addition, three                    Financial Status Reports did not accurately reflect the amount claimed as the federal share of the grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.
   



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.